<html>
<title> - WATER SHARING CONFLICTS AND THE THREAT TO INTERNATIONAL PEACE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





     WATER SHARING CONFLICTS AND THE THREAT TO INTERNATIONAL PEACE

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 18, 2014

                               __________

                           Serial No. 113-231

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                      
                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

91-455 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                      
                       
                       
                       
                       
                       

                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas
CURT CLAWSON, Florida

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             GREGORY W. MEEKS, New York
JEFF DUNCAN, South Carolina          ALBIO SIRES, New Jersey
PAUL COOK, California                BRIAN HIGGINS, New York
GEORGE HOLDING, North Carolina       ALAN S. LOWENTHAL, California
STEVE STOCKMAN, Texas



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Paul Sullivan, Ph.D., professor of economics, National Defense 
  University.....................................................     5
Amanda Wooden, Ph.D., associate professor of environmental 
  studies, Bucknell University...................................    23
Kathleen Kuehnast, Ph.D., director, Center for Gender & 
  Peacebuilding, United States Institute of Peace................    34

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Paul Sullivan, Ph.D.: Prepared statement.........................     8
Amanda Wooden, Ph.D.: Prepared statement.........................    26
Kathleen Kuehnast, Ph.D.: Prepared statement.....................    36

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61

 
     WATER SHARING CONFLICTS AND THE THREAT TO INTERNATIONAL PEACE

                              ----------                              


                       TUESDAY, NOVEMBER 18, 2014

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2255 Rayburn House Office Building, Hon. Dana 
Rohrabacher (chairman of the subcommittee) presiding.
    Mr. Rohrabacher. Subcommittee is called to order. This 
afternoon's hearing is on the topic that I consider to be of 
great importance--the sharing and management of water across 
international borders. When well done, both the environment and 
the people involved can prosper.
    When done poorly or not at all, it can be a cause of 
conflict. As a proud and longtime resident of southern 
California, I know first hand the vital importance of having 
access to clean water.
    We drink water. We use water. We use it to generate 
electricity . Some of us surf in the water. Water is required 
in a wide range of industries that are essential to the well 
being of the people, especially agriculture.
    Water is a common staple of life, but where it is scarce it 
is a strategic resource that nations compete to control.
    We have before us today a panel of experts who will review 
the potential for water conflict in two areas of the world--the 
Aral Sea watershed in Central Asia and along the Nile River in 
East Africa.
    During the Soviet period, water sharing between the five 
Central Asian republics was commanded by Moscow. The downstream 
nations of Turkmenistan, Uzbekistan and Kazakhstan needed vast 
amounts of water, primarily for agriculture.
    The upstream republics, Kyrgyzstan and Tajikistan, have a 
surplus of water and would release their water from their dams 
during the summer months to irrigate the crops downstream. In 
exchange, the downstream nations would then send oil and gas 
and other resources which they possess to the upstream nations 
during the winter time for fuel and heating.
    Since 1991, the Soviet era arrangement between the five 
republics has broken down. The upstream nations have sought to 
expand their hydroelectric infrastructure through the building 
of new dams.
    This has been a great source of consternation among the 
other Central Asian governments, especially Uzbekistan. The 
breakdown in trust and coordination between these governments 
concerning water sharing has been a distraction from more 
pressing issues such as economic development and thwarting 
radical Islam.
    What should be a source of regional cooperation and 
strength is now a source of regional tension. Let me just note 
beside the rise in regional strife and waste and misuse of--and 
overuse of water that has had a dramatic impact--that it has 
had a dramatic impact on the environment there.
    The Aral Sea, which once was one of the largest bodies of 
fresh water in the world, has all but disappeared. That is a 
visible tragedy that should be an incentive for the governments 
of Central Asia to tackle this problem.
    In a different part of the world, the Nile and its 
tributaries are another example of where international 
cooperation is under stress. The waters that combine to form 
the Nile flow through ten different countries. It is one of the 
great rivers of the world and supplies 85 percent of Egypt's 
water.
    Ethiopia is currently executing a plan to construct the 
Grand Ethiopian Renaissance Dam across the Blue Nile. The 
Ethiopian Government hopes to have the dam completed by 2017.
    They hope that with that accomplishment Ethiopia will 
become the largest energy exporting state in East Africa. Yet, 
Egypt has justifiable fears that the new dam will reduce the 
flow of water that it receives.
    The task of finding a solution is complex. Legal agreements 
governing the control of the Nile's waters date back to the 
colonial era when many of the current governments didn't even 
exist.
    More recently, multinational--multilateral projects, that 
is, such as the Nile Basin Initiative, has had some success. 
But there has yet to be a breakthrough on the largest 
controversy surrounding the peaceful sharing of the water of 
the Nile.
    In 2013, the rhetoric between Egypt and Ethiopia hit a new 
low point when then President Morsi stated in not so--it was 
not so veiled threat, that is, that, and I quote, ``All options 
are available.'' To respond to the building of the Renaissance 
Dam it was all of Egypt's options are available and that does 
sound like a veiled threat.
    Since the election, the current government in Cairo, a more 
positive--there has been a more positive tone and I hope the 
ongoing negotiations will, at some point, lead to an 
understanding between these two countries.
    I am going to be asking our witnesses to update the 
subcommittee on the current status of negotiations between 
Egypt and Ethiopia and lay out what steps our country might 
take to promote international water cooperation.
    The national--excuse me, the natural resources of our 
planet, including water, are gifts that we can use to improve 
the lives of all the people of the world. But it is a scare 
resource and dividing scarce resources is never easy.
    But when nations come into conflict over such resources 
what you also end up with is that you have a waste of those 
resources, a waste of energy and perhaps conflict that could 
cause--have a great cost for both sides in such a controversy.
    So we hope today to get a little better understanding of 
these potential conflicts, how they might be averted, so the 
solutions and we thank our witnesses for coming. And now 
Ranking Member Mr. Keating for your opening statement.
    Mr. Keating. Well, thank you, Mr. Chairman, and thank you 
for holding this timely hearing, and I also want to thank you 
for your leadership on this. I think this committee continues 
to highlight one of the most important global issues that we 
are facing and I think that, hopefully, the spotlight we are 
able to cast on this will result in more interest and more 
emphasis on dealing with this because, Mr. Chairman, it is 
indeed one of the most important issues we have to contend 
with.
    So I would also like to thank our witnesses, in particular, 
Kathleen Kuehnast. Kathleen testified before the full committee 
on the role of women in conflict prevention and I welcome her 
back to the committee today. I appreciate your being here as I 
do all of our witnesses.
    Today's hearing topic provides us with an opportunity to 
look beyond Europe and Eurasia and examine the global impact of 
depleting resources, climate change, an expanding world 
population and accompanying social unrest.
    Last year, for the first time the Director of National 
Intelligence, James Clapper, listed ``competition and scarcity 
involving natural resources'' is a national security threat on 
par with global terrorism, cyber warfare and nuclear 
proliferation.
    He also noted that terrorists, militants and international 
crime groups are certain to use declining local food security 
to gain legitimacy and undermine government authority, and that 
is what we have to look at if this goes unchanged in the 
future.
    I would add that the prospect of scarcities of vital 
natural resources including energy, water, land, food and rare 
earth elements in itself would guarantee geopolitical friction.
    Now add lone wolves and extremists who exploit these 
scenarios into the mix and the domestic relevance of today's 
conversation becomes clear. Further, it is no secret that 
threats are more interconnected today than they were, let us 
say, 15 years ago.
    Events which at first seem local and irrelevant have the 
potential to set of transnational disruptions and affect U.S. 
national interests. At the same rate, issues of mutual concern 
provide the opportunity for greater cooperation, and projects 
that encourage community building and environmental awareness 
at the local level are taking place and should be encouraged.
    In particular, I believe that the women in communities 
threatened by water scarcity will have an important role to 
play in the future and should be engaged by their local 
governments and international communities now.
    I agree with Mr. Clapper that the depletion of resources 
stemming from many factors which, above all, include climate 
change has the potential to raise a host of issues for U.S. 
businesses, officials and individuals abroad as well as here at 
home.
    For this reason, Mr. Chairman, I have long advocated for 
alternative energy sources. Yet, as the representative of what 
will be, hopefully, 1 day the nation's first offshore wind 
farm, I deal daily with obstructive businesses and individuals 
trying to get in the way of this project and others like it in 
exchange for increasing their companies' profit margins.
    I would like to add that, given our distinguished panel of 
witnesses today and our subcommittee's jurisdiction, I am sure 
we will be hearing about the tremendous energy reserves in 
Central Asia and the need for diversifying energy markets.
    In this regard, I would like to note that I have and will 
continue to advocate for the importance of increasing 
democratic governance and rule of law in that region.
    Energy production can get you only so far. I would like to 
hear from our witnesses on how the United States can engage 
with Central Asian governments to improve governance, 
transparency in the energy sector both bilaterally and through 
international organizations such as the Extractive Industries 
Transparency Initiative.
    However, as we discuss these important issues, I hope that 
we can continue to keep our own country's movement toward an 
energy-independent future and the obstacles on this path in our 
minds.
    Thank you, Mr. Chairman.
    Mr. Rohrabacher. Well, I knew you would get global warming 
in there somewhere. It is okay.
    Mr. Meeks, would you like to share an opening statement 
with us?
    Mr. Meeks. Thank you, Mr. Chairman.
    Inequitable access to fresh water is highly variable 
between and within countries and much of the world's population 
lives in places where demand for water exceeds supply.
    International water shortages are a critical issue with far 
fetching--far reaching effects on global security and 
stability. That is why, Mr. Chairman, I am thankful to you and 
the ranking member for convening such a timely hearing today to 
address this very, very important topic.
    An increasing prevalence of water shortages and the 
subsequent threats to peace these shortages present are 
fundamentally a global trend. Indeed, even here in the United 
States of America we are not immune from this problem.
    As some of my colleagues, and you may very well know there 
was just a program on 60 Minutes, ``Out West,'' talking about 
how the groundwater is being depleted even in the United 
States.
    So America has a stake in this issue just like every other 
country and we must realize that all of our futures are 
dependent upon the actions that we take now.
    We have to look at this problem from a geopolitical 
perspective and understand the complex relations which exist 
between nations and places like East Africa and Central Asia.
    Many of their disputes over water go back decades, if not 
longer. We must also look at this from a human perspective 
because at the end of the day it is ultimately about human 
life. Every year, 2.1 million people, mainly children, die due 
to illness related to dirty water, poor sanitation and poor 
hygiene.
    One-third of the world's population lives in water-stressed 
countries, primarily in Asia and Africa. The actions we take 
today hold the potential to eliminate human suffering tomorrow 
and promote peace and cooperation for generations to come.
    We must think long and hard about how we avoid conflict. We 
must discuss ways we can advance science and put it to work in 
the service of mankind.
    And most importantly, we must collectively discuss how we 
can use diplomacy both here in the United States as well as 
abroad to promote fair, reasonable, responsible and sustainable 
strategies for cooperation among our friends and partners 
around the world.
    For, indeed, this place that we call Earth is small and we 
share it with each other and we need to preserve it for each 
other. Otherwise, we are all subject to perish. So I am 
grateful, again, to the chairman and the ranking member and I 
am grateful to our witnesses for being here today and I look 
forward to hearing the testimony of our witnesses on this very, 
very important matter.
    Thank you.
    Mr. Rohrabacher. Thank you, Mr. Meeks, and I will give a 
brief introduction to our witnesses, and our first witness is 
Dr. Paul Sullivan and he is a professor of economics at the 
National Defense University. For 6 years Dr. Sullivan taught 
classes at the American University in Cairo.
    He obtained his Ph.D. from Yale University, has advised 
senior U.S. officials on many issues related to energy, water, 
food, economics, politics and political security issues.
    Next, we have Amanda Wooden--Dr. Amanda Wooden--who is an 
associate professor and director of environmental studies at 
Bucknell University.
    She earned her Ph.D. in international relations and public 
policy at Claremont Graduate University in California, nearby 
my home turf. Dr. Wooden served with the organization for 
security and cooperation in Europe as an economic and 
environmental officer in Kyrgyzstan.
    And finally, we have Dr. Kathleen Kuehnast, who is the 
director of the Center for Gender and Peacebuilding at the 
United States Institute of Peace. She is an expert on Central 
Asia and Central Asian countries like Kyrgyzstan in particular 
where, for over a decade, she worked as a social scientist for 
the World Bank with a focus, of course, on Central Asian 
conflict prevention.
    So we are very, very blessed to have you with us today. We 
thank you for taking your time and sharing your knowledge and 
experience with us. I would ask if you could try to keep it to 
a 5-minute summary.
    Everything else that you would like to have in a more 
developed way you could put into the record as part of your--as 
part of your testimony. And with that, Dr. Sullivan, you may 
proceed.

  STATEMENT OF PAUL SULLIVAN, PH.D., PROFESSOR OF ECONOMICS, 
                  NATIONAL DEFENSE UNIVERSITY

    Mr. Sullivan. Good afternoon, Chairman Rohrabacher, Ranking 
Member William Keating, from my home state of Massachusetts, 
the honorable majority and minority members of the 
subcommittee, Mr. Meeks, it is an honor and a privilege to be 
giving testimony on this extremely interesting issue.
    I heard national security mentioned. This is also involved 
with economics, politics, geopolitics, diplomacy, possibly the 
military and also human security, and without the human 
security of water, food and energy security, terrorism and 
other things can result.
    Before I give any public presentation, I need to give the 
usual caveats. These are my opinions alone and do not represent 
the university--the National Defense University--the Department 
of Defense, the U.S. Government, Georgetown or any other 
institution I might be associated with.
    I will focus mostly on the Blue Nile with the Great 
Ethiopian Renaissance Dam, or the GERD, in Ethiopia with its 
potential effects on downstream countries, especially Egypt and 
the Omo River, with the Gibe Dam cascade and especially Gibe 
III Dam and the effects on Lake Turkana in Kenya and also in 
Ethiopia.
    These dam systems are way along the way, even as these 
tensions build. When water is at threat, then energy, food, 
industry and more are also at threat, including peace and 
stability.
    Severe water shortages can breed poverty, hopelessness, 
terrorism and even revolution as we saw in Syria with the 
horrible droughts in 2008 through 2010, essentially sparking 
off the revolution.
    The GERD Dam is built on the Blue Nile, or Abbay, as it is 
called in the region. Egypt uses about 98 percent of its 
available water. It is already water stressed.
    Water shortages in Egypt built up some tensions leading to 
the revolution and beyond. Egypt has 55 cubic kilometers of the 
Nile water for its allocation from a 1959 treaty which Ethiopia 
does not recognize.
    They and others except for Sudan have signed on to another 
treaty which they recognize. Fifty-five cubic kilometers seems 
like a lot of water. However, for a population close to 90 
million it really is not.
    They are living on a knife's edge of water security. When 
the reservoir behind the GERD is filled it could contain 75 
cubic kilometers of water, which is much greater than Egypt's 
Nile-designated amounts.
    It is also one half of the entire water in Lake Nasser, 
which is the only buffer Egypt has if there is a great shortage 
of water upstream. The Blue Nile gives Egypt about 60 to 70 
percent of all of its water depending on seasonal water flows.
    It is very important to understand that the real time to 
develop water are when it rains the most--in this part of the 
world it is June through September--and that will likely be 
when the GERD Dam is filled up. But it is also a time, June to 
September in Egypt, when it is very hot, also great needs for 
electricity.
    In the 1980s, there were famines and droughts in Ethiopia. 
About a million people died. At the same time, the water 
heading toward Egypt was cut back, and when it was cut back the 
electricity production from hydro dams in Egypt was also cut 
back.
    There was a problem with irrigation. There was a problem 
with food. Egypt and Ethiopia are intimately connected through 
the Nile. What happens in Ethiopia can really affect what is 
happening in Egypt.
    If the GERD Dam is filled up too quickly and at the wrong 
time Egypt could go beyond that knife's edge in security.
    This is possibly a nightmarish situation for many 
Egyptians. They are quite concerned. If they were around in the 
1980s they knew what happened then. It is not clear how this 
dam is going to be filled up. It is not clear from any of the 
studies.
    As a matter of fact, no real studies have been done of 
this. A lot of ideas have been bantered about the way this 
might work out but the behavior of the Ethiopian Government on 
the Omo River with regard to the Gibe cascade is a giveaway.
    They could care less, it seems, about what happens to Lake 
Turkana in Kenya or of the tribals along the river--the Omo 
River. They have essentially tossed them off their land and 
there is a huge land grab happening right now.
    The Ethiopians have claimed that they are not going to be 
using the GERD reservoir water for irrigation. However, if 
there is another famine I can guarantee you they will, and 
Egypt will be in trouble.
    Because just letting the water go through for electricity 
is very different from using that water for irrigation. It 
takes more and more of it out. There has to be some way to come 
to some agreement before it gets worse, before populations 
grow, before economic demands grow, before agriculture grows 
along the river.
    International law, in this case, is quite weak. There is no 
enforcement mechanism. You have the Helsinki agreements, the 
Berlin agreements. You have Article 7 of the U.N. Convention, 
the Nile Basin agreement and so forth. But without an 
enforcement agreement, we are really going nowhere with this.
    Part of what may be needed, and this is where the United 
States may walk in, is that we tried to help develop with our 
allies and partners and many others in the world an enforcement 
mechanism for these treaties and new treaties to take a look at 
a better way of sharing water.
    If we don't do that, the situation will get more tense 
along the Nile and many other places in the world.
    Thank you.
    [The prepared statement of Mr. Sullivan follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Mr. Rohrabacher. Dr. Wooden.

   STATEMENT OF AMANDA WOODEN, PH.D., ASSOCIATE PROFESSOR OF 
           ENVIRONMENTAL STUDIES, BUCKNELL UNIVERSITY

    Ms. Wooden. Thank you. Mr. Chairman Rohrabacher, Ranking 
Member Keating, Member Meeks and other distinguished members of 
the committee, thank you for inviting me to testify here today.
    In Central Asia, the main water disputes concern the water 
energy nexus but a direct relationship between water scarcity 
and interstate conflict is an unlikely scenario.
    There are already existing contentious water politics 
within several countries in the region and these combine and 
most recently are combining with finger pointing between 
Central Asian leaders who, at times, have used nationalistic 
rhetoric and threats about water to implement other political 
issues.
    However, existing cooperation, even within the current weak 
institutional regional water sharing network, means that 
conflict is avoidable. So to help strengthen cooperation, the 
U.S. Government should expand support for renewable energy 
development and electricity distribution, help tackle 
pernicious pollution problems, continue and expand support for 
scientific research in and about the region and increase 
support for climate change mitigation and adaptation.
    The most important regional water tensions and social 
discontent issues are hydro electric dam development, 
irrigation management, infrastructure failures, militarized 
border zone water sharing and flooding potential.
    Aral Sea ecosystem collapse is a significant livelihood 
threat. The biggest future of water supply risks are glacier 
loss and precipitation changes as well as hidden creeping 
pollution problems and industrialization.
    Kyrgyzstan and Tajikistan currently face significant 
adaptive capacity limitations and all countries need to better 
tackle rural vulnerabilities and deal with citizens' everyday 
water challenges.
    The glacier-fed rivers Syr Dar'ya and Amu Dar'ya, the main 
rivers in the region, terminate in the former Aral Sea, which, 
as the chairman already described, was once the world's fourth 
largest lake and now is only 10 percent of its former size.
    Most recent NASA images show the largest lake portion no 
longer exists. I gave you an appendix of images, about 15 
images, that show you the map of the region and what this 
transition looks like.
    The Aral Sea collapse and continuing decline of residents' 
quality of life, which includes access to fresh water, soil 
quality loss, shortened growing season length, could contribute 
to dissent in Uzbekistan, and this is important to understand.
    The ongoing disagreements between Central Asian governments 
over the Syr Dar'ya and the Amu Dar'ya and seasonal tensions in 
securitised cross border communities like the Ferghana Valley 
are the key tension points.
    There are also complex functioning relationships from the 
local to the national level. When we talk about conflict it is 
important to recognize that cooperation is more regular than 
disagreements and tense events, although that cooperation seems 
fragile at times.
    So we have moments where paying attention to what can work 
in cooperation and how we can enhance that is important. The 
biggest conflict risks in Central Asia are political and 
economic--government willingness to tackle everyday struggles 
with water and power, authoritarian state treatments of 
information sharing and dissent--human rights and access to 
water being one of those--subsequent contention between people 
and governments about their nonresponsive policies which we see 
in times of drought and responses, and regional leaders' use of 
nationalistic rhetoric to lay claim to waterways and 
rationalize particular waterway uses are--these are the biggest 
risks.
    I also would suggest caution when we use danger and risk 
rhetoric. This language can contribute to a difficult--already 
difficult dialogue between Central Asian nations. So more 
specifically, let me talk about hydro energy.
    Around 90 percent of Kyrgyzstan and Tajikistan's energy 
production--electricity production is from hydro power so both 
countries are investing heavily in reviving Soviet-era plans to 
expand this sector.
    Kyrgyzstan is constructing the large Kambar-Ata dams I and 
II and four smaller dams on the Naryn River with the completion 
date target of 2019, and Tajikistan is heavily investing in the 
Rogun Dam, which will displace more than 40,000 people.
    The Government of Uzbekistan has seemingly engaged in 
economic retribution through border securitisation and cutting 
off gas supplies to both countries at various times and the 
downstream countries perceive this as a direct response to dam 
construction.
    Southern Kyrgyzstan's gas has been cut off since spring. So 
both Uzbekistan and Kazakhstan continue to pressure for halting 
this large-dam construction or engaging in regional evaluation 
of the projects mutually.
    They are concerned these dams will impact availability and 
timing of flow for downstream irrigation-dependent and flood 
risk communities.
    However, both Kyrgyzstan and Tajikistan face the reality of 
electricity shortages and impact of power outages on their 
population's well being and popular discontent. Recent research 
that I conducted in Kyrgyzstan concerns the 2010 revolution, 
which was in part sparked by protest about electricity 
blackouts, partial privatization of this sector, and increase 
in tariffs. This year, 2014, is a very similar year to 2008 and 
2009 in Kyrgyzstan.
    Already blackouts are likely for the winter, tariffs are 
being discussed and it is hard to imagine for Kyrgyzstan and 
also Tajikistan that they would halt the controversial dam 
construction projects given their severe domestic electricity 
shortages.
    So how do we think about tackling this? Moving forward, 
there needs to be clarity about how Rogun, the new Rogun and 
Naryn dams, will be operated or tensions will remain and 
perhaps increase during dam construction and the reservoir-
filling period.
    The CASA-1000 project to which the U.S. Government is 
contributing to export electricity from Kyrgyzstan and 
Tajikistan to Afghanistan and Pakistan is another point of 
contention.
    Uzbekistan opposes this project as it arguably depends on 
these new dams for adequate electricity export. Perhaps one way 
in which the United States Government could help to improve 
relations is following the International Crisis Group's 
suggestion to support creating multiple bilateral agreements 
instead of the current dysfunctional multilateral agreements. 
So this has happened between Kazakhstan and China, between 
Kyrgyzstan and Kazakhstan in the Chui-Talas River Commission, 
and Kyrgyzstan and Tajikistan could engage in bilateral 
agreements.
    Of course, we would hope that Uzbekistan and Tajikistan and 
Uzbekistan and Kyrgyzstan would do the same but those are less 
likely.
    A key future change is projected decreases in the Tien Shan 
and Pamir mountain glacier surface areas and volume over the 
next few decades. The region will shift from a glacier-
dependent hydrological regime to a precipitation-dependent one, 
resulting in greater variation in water levels, seasonally and 
annually.
    So adapting to this slow-moving process requires 
significant international support. I have five key policy 
suggestions.
    The first is, given this tight relationship between water 
and energy and regional distribution disputes as well as 
household energy and security, it is most important to invest 
in expansion of renewable energy sources, off grid household 
energy systems and related infrastructure.
    The USAID Energy Links program works on institutional 
strengthening and some energy efficiency improvement. However, 
much more is needed.
    Second, water pollution is often missed in discussions of 
conflict but it is fundamental for tackling everyday problems 
residents face and consequentially for adjusting and 
maintaining political stability.
    For example, U.S. Government funding to help address the 
uranium tailings legacy would be positively received by 
multiple countries so it would be cooperation enhancing and 
something we want to return to.
    Large-scale industrial projects should be monitored, 
especially, for example, I can mention Kumtor gold mine which 
is operating on four glaciers in the Tien Shen mountains.
    There are several glaciers that are actively being mined in 
the operation of this gold mine facility and this is something 
that should be evaluated when we talk about the EITI, for 
example, that Mr. Keating mentioned.
    Third, supporting Central Asian glaciology and hydrology 
research and scientific monitoring is a valuable contribution, 
and USAID is considering contributing to the World Bank Central 
Asia hydro meteorology modernization program and I would 
support this.
    And, finally, glacial decline is already happening and it 
will have clear impacts on regional water distribution. It is 
necessary to increase funding for mitigation and adaptation, 
improve and expand programs such as the USAID wheat resiliency 
program and tackle this issue more broadly.
    Thank you very much.
    [The prepared statement of Ms. Wooden follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. You are next, Doctor.

  STATEMENT OF KATHLEEN KUEHNAST, PH.D., DIRECTOR, CENTER FOR 
    GENDER & PEACEBUILDING, UNITED STATES INSTITUTE OF PEACE

    Ms. Kuehnast. Thank you so much, Chairman Rohrabacher, 
Ranking Member Keating, Mr. Meeks and other members of the 
House Foreign Affairs Subcommittee on Europe, Eurasia and 
Emerging Threats.
    Please note that the views I express today are solely my 
own and not those of the U.S. Institute of Peace, which does 
not take policy positions.
    I want to emphasize three points related to Central Asia 
and water issues. Water is a mismanaged resource, not 
necessarily a scarce one. Central Asia is not a friendly 
neighborhood for water management.
    Given these predicaments, we can ask why there hasn't been 
more conflict over water in the past and how this might change 
in the future.
    According to World Bank estimates, only 21 percent of water 
in Central Asia is used effectively. A recent report in the 
journal Nature found that on average a person in Turkmenistan 
consumes four times more water than an average American and 13 
times more than a Chinese citizen.
    Certainly, the Soviet centralized state enforced the rules 
for water allocation among the republics, regulating and 
maintaining canals, pumping stations, irrigation facilities, 
dams and reservoirs.
    The post-Soviet era, however, brought the creation of five 
Central Asian states, resulting in a predicament where 98 
percent of Turkmenistan's water supply and 91 percent of 
Uzbekistan's originates outside their borders.
    While poor water management and wasteful practices are core 
issues in Central Asia, the factors that have kept the regional 
tensions over water and energy resources from spilling over may 
no longer hold.
    Consider the demographic challenge of Central Asia. Roughly 
half the population is under 30 years of age and most of these 
young people are worse off than their parents' generation, with 
higher rates of illiteracy, unemployment and poor health.
    Inattention to the needs of this disenfranchised age group 
increases the risk of local level conflicts in the individual 
countries and throughout the region, especially with known 
extremist groups infiltrating these countries.
    But also add a widening gap and tension between elites and 
the poor, weak governance along with the prevalence of patron-
client relationships, loyalty, manipulation of formal rules.
    Add an increasing fear among the local populations that 
water and energy problems will be resolved at the end of a gun, 
especially as the number of small arms surge, coming up from 
Afghanistan.
    Add the fact of the large number of labor migrants from 
Uzbekistan, Kyrgyzstan and Tajikistan leaving empty villages 
except for their labor widows, as they are often called. We 
have a security problem.
    The recent prediction that Central Asia will see slower 
growth this next year due to the economic stagnation of 
countries outside the region, and finally, President Karimov's 
exit, whenever it happens, there will be a change in the 
dynamics of the region.
    His autocratic and oppressive governance has held the 
border tensions in check. However, new leadership may bring 
uncertainties with regards to containing hostilities.
    In summary, I would like to highlight several points for 
the U.S. Government including Congress to consider. Support 
good water data collection and share information with 
consumers, farmers, businesses and policy makers alike.
    Engage young people through small grants and encourage 
entrepreneurial social marketing and research studies to 
address overuse of water by fellow citizens. Teach critical 
problem solving skills in U.S. training and educational 
exchange programs with Central Asian youth.
    Engage women and civil society as women are often at the 
nexus of daily water management. And finally, ensure effective 
conflict management skills at the local and national levels. 
This is where the U.S. can most effectively contribute by 
education and training that offers skill-based approaches to 
negotiation and conflict management.
    The U.S. Institute of Peace considers conflict a normal 
condition of human societies. However, much can be done to 
prevent violent conflict from being the default mechanism for 
solving the problem at hand.
    Central Asia deserves American support for conflict 
prevention. Thank you. I am happy to answer your questions.
    [The prepared statement of Ms. Kuehnast follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. Well, thank you very much to all three of 
you for your testimony. Some of the statistics that you were 
quoting both about Egypt's use of water and both Tajikistan and 
Uzbekistan's use of water that is coming from the outside of 
their country is just a bit overwhelming from countries like 
the United States that have so many of our own resources.
    Let me note, in California I am not sure exactly what 
percentage of California water comes from the outside, which 
will lead me to a question about, I guess, is desal being used 
at all, Dr. Sullivan, in Egypt?
    Mr. Sullivan. It is being used in the Sinai for some of the 
hotels and for some of the military bases and also on the north 
coast.
    But part of the problem is that about 98 percent of the 
population of Egypt lives on the Nile and the Nile stretches 
all the way to the Sudan from the Mediterranean and you can't 
desalinate the Nile.
    What you would have to do is have huge pipeline systems set 
up to bring the desalinated water from either the Mediterranean 
or from the Red Sea or from other parts of the----
    Mr. Rohrabacher. Well, the--isn't Cairo near the ocean?
    Mr. Sullivan. Well, it is actually many miles from the 
ocean.
    Mr. Rohrabacher. That is interesting. Yes.
    Mr. Sullivan. It is a good two and a half hour drive to get 
to Alexandria from Cairo, and for that water to move from the 
Mediterranean Sea to Cairo would be extremely expensive 
infrastructurally and also it takes a lot of energy.
    If they set up solar desalinization plants that may be a 
better way of doing things. They also--they already have a 
shortage of gas. They are a net importer of oil.
    A country that, when I was living there in the 1990s, was a 
country that was hoping for great exports of oil and natural 
gas.
    Mr. Rohrabacher. So the--what we are talking about is 
projecting what could be but what isn't and I would say my own 
observation of how close things are or how far things are away 
it all depends on your perspective.
    Being 2 hours from the ocean may or may not be a long way 
for certain societies.
    Mr. Sullivan. Well, in L.A. that is just across the corner.
    Mr. Rohrabacher. That is right.
    Mr. Sullivan. But in Cairo the traffic is difficult but I 
am talking about on a Friday morning during an Eid. It is a 
long distance.
    Mr. Rohrabacher. Mm-hmm. We actually get our water from--a 
lot of water from the Colorado River but we also now are--have 
a--put a--made a lot of large investment in developing new 
desal technology, which may be--have an impact on the Egyptian 
problem because at least it could provide some areas that have 
some access to the--to the ocean or the Mediterranean Sea or 
whatever, the Red Sea as well, a means of having fresh water 
because the price of desal is going down.
    I am on the Science Committee and I can tell you that the 
new invention by Lockheed of use of graphene in your system 
will bring down the cost--of energy cost of desal and thus will 
bring down the cost dramatically.
    Whether or not how long that takes to put in place, that 
type of desal project and with the energy level that is still 
required by that may or may not come in time.
    Let me--is there anyone right now involved with trying to 
mediate or arbitrate a difference between Ethiopia and Egypt?
    Mr. Sullivan. Well, the President al-Sisi has had many 
discussions with the Ethiopians. There are conciliatory moves 
including some trade deals.
    The rhetoric has been calmed down, certainly since the 
regime of President Morsi and the Muslim Brotherhood which, by 
the way, if water stress comes in an extreme manner to Egypt 
there is a very good chance the Brotherhood will come back 
because it will be a failure for General al-Sisi--President al-
Sisi. There are many people trying to find some middle ground 
here.
    Mr. Rohrabacher. Who--what--isn't there--is there any 
international organization we have now that we can call upon to 
do that?
    Mr. Sullivan. Well, there is the Nile Basin Initiative and 
that----
    Mr. Rohrabacher. Right. Seeking a--to mediate or to 
arbitrate this dispute or is it just there to try to facilitate 
communication?
    Mr. Sullivan. Facilitate communication. It is also rather 
toothless on this one. When you have two countries that are at 
odds it is very difficult to find a middle ground.
    The United States may act as a convener in some place 
distant from their two countries.
    Mr. Rohrabacher. So you think the United States--that we 
could step forward and offer both of these countries a--to play 
a mediation role or an arbitration role?
    Mr. Sullivan. We could. We could, and it also may be a way 
to repair some of the damage to U.S.-Egyptian relations that 
occurred with the cutting back of military aid in a time when 
they needed it the most and then they turned to Russia, which 
right now seems to be a problematic country for the United 
States.
    Mr. Rohrabacher. That happened with a dam in the past, 
didn't it?
    Mr. Sullivan. Yes, it did. Yes, it did. That would be the 
Aswan High Dam. But desalinization, getting back here, they are 
not that--that doesn't seem to me to be sufficient and would 
take time to ramp this thing up.
    Mr. Rohrabacher. Well, it certainly wouldn't be sufficient 
in the Central Asian republics because they are not near the 
ocean at all.
    Let us just note that we did convince the Ethiopians at one 
point to agree to arbitration of a major dispute that they were 
in with Eritrea, and I--this has happened during the last 
administration so you know this is not a partisan remark.
    But I thought the behavior of our Government in that whole 
episode was disgraceful and has undermined our ability to be--
to arbitrate other disputes in the sense that Ethiopia--the 
decision of the arbitration went against Ethiopia in their 
border dispute with Eritrea and we extracted some kind of other 
deal with them to help us with some sort of defense-related 
deal and let them off the hook, basically said they didn't have 
to follow the arbitration which meant that the message to all 
of Africa was you don't--you better skip out the arbitration 
because that just doesn't work.
    Even the Americans are going to discard it--what the result 
is. That was very sad. I would hope that we could come up with 
someone who could help arbitrate between Ethiopia and Egypt on 
this.
    Your testimony is, from what I take from your testimony, is 
that if the Ethiopians do take a longer period of filling this 
dam up with water, a long period of time, it may not be 
harmful.
    They could--it is possible that both sides could actually 
come out of this okay as long as the Ethiopians were filling 
their dam in a responsible way. Is that correct?
    Mr. Sullivan. When you are in a country such as Egypt which 
is using 98 percent of its water, there is only a 2 percent 
leeway there, and to see only 2 percent reduction is probably a 
low probability event.
    When they are filling this thing up, they want to fill it 
up as quickly as possible. Yes, there is a possibility for 
negotiating a slow fill. But in order to not damage Egypt it 
would have to be over many, many years.
    Mr. Rohrabacher. That should be something that maybe they 
could be negotiating, perhaps.
    Mr. Sullivan. Perhaps, but it also leaves Ethiopia in a 
position of controlling the water tap if at any time it needs 
to control that water for the next famine, for the next 
drought, and then Egypt is shut off.
    During the 1980s, 1984 in particular, Egypt was damaged 
from this and there wasn't even a dam there. Egypt is possibly 
in a much riskier situation now that this spigot is there, 
which a hydro dam could be. And you add in irrigation it gets 
even worse.
    Mr. Rohrabacher. I think that we have got to be very 
sensitive to that--to make sure that that outcome does not 
happen.
    The Egyptian Government right now is pivotal to peace in 
that region and for us to--the people have to know that the 
United States--the people of the United States are on their 
side in making sure that they do not wake up one morning and 
find the actions of another government, whether it is Ethiopia 
or whoever, has dramatically negatively impacted on their 
economic well being.
    So today I would just call on our Government--the United 
States Government--to do what it can to make sure that the 
Egyptian people are never put in that spot where a decision 
made in Ethiopia or some other government will economic--bring 
their economic well being down--the standard of living down 
that cause suffering among their people. That is unacceptable 
as an alternative.
    Hopefully, the United States--our Government--will take 
that as a priority and try to get and solve this problem in 
some sort of role that we can play, which I will leave to you 
to answer, again, on the second round.
    I now--Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. I want to compliment 
the witnesses for the breadth of what they have covered in that 
short period that they addressed this.
    One thing that struck me, let us talk on the demand side 
for a second because I think it was Dr. Kuehnast who was 
mentioning the comparison between some Central Asian countries 
and China, for instance, where the amount consumed per person 
is 14 times what it is there and it is four times more than in 
the U.S.
    What areas of demand can be addressed to be helpful, if 
that is the case? I understand some of that is just water 
mismanagement itself but also what can be done to make those 
ratios more in line?
    Certainly, China has enormous challenges in this area too 
and they seem to be doing better.
    Ms. Kuehnast. I would clarify that each of these states are 
so different and difficult to characterize them all as Central 
Asia. In this case, it was Turkmenistan.
    I think you know one of the problems that we are all 
talking about is agricultural use and there is great demand. 
You also have a legacy of the Soviet period that wanted to grow 
rice in this part of the world, that does grow cotton--as you 
know, takes a lot of water--grows potatoes and wheat. But all 
of these are a great drain, and what you have simultaneously is 
countries coming into their own economic processes and they are 
needing to pivot an entire generation from agricultural 
practices to service, to business, and that is taking a 
generation at least because suddenly not having the Soviet 
system in place for education it is like retooling everybody.
    And so some of it is systemic from the Soviet legacy and 
some of it is how do you help turn a country toward a forward-
looking process of business and other kinds of forms of 
economic development.
    Mr. Keating. You have also touched on emergencies and 
disasters. Certainly, disasters--natural disasters like 
earthquakes can cause problems, or terrorist acts can cause 
problems as well.
    What is being done on the international community to reduce 
the destabilizing effects of this kind of water-related event? 
Any ideas? Is there any planning on that or are we just sitting 
there waiting for one of these things to happen? Dr. Sullivan?
    Mr. Sullivan. There is a lot of talk--talk, talk, talk. Not 
much action and no enforcement. That is the answer.
    Mr. Keating. So the answer is we are at great risk to those 
type of disasters and we are not prepared for that. Okay.
    Ms. Kuehnast. I could add to that, if I could.
    Mr. Keating. Yes.
    Ms. Kuehnast. There are a number of programs for dealing 
with emergency energy needs in Kyrgyzstan and Tajikistan in 
particular. So the United Nations and World Bank has a number 
of programs and USAID has been connected too in supporting some 
of that.
    In terms of natural disaster institutional strengthening, 
in Kyrgyzstan it is actually a pretty interesting case of 
improvement where the Ministry for Emergency Services actually 
strengthened and visibly improved its ability to monitor, map 
and prevent some of those impacts from natural disasters, 
mostly from landslides and from earthquakes.
    Also, there is a good support and implementation from that 
ministry to build the capacity in local communities and 
vulnerable locations.
    So I would say that that is a really--actually an 
interesting impact, one of the most valuable impacts of aid in 
the region and that ministry has worked to coordinate with 
ministries across the wider region in mapping and monitoring 
the potential impacts.
    Mr. Keating. I can't let my time go without mentioning 
global warming, and----
    Mr. Rohrabacher. I knew it.
    Mr. Keating [continuing]. And Dr. Wooden touched on this 
with glacial decline. But what extent is global warming and 
climate change?
    What extent will they contribute to the potential for 
conflict over water resources and how can countries--
countries--come together to address the larger impact of this 
phenomenon? Do you have any examples?
    Ms. Wooden. Well, sorry. Go ahead.
    Mr. Keating. No, you go ahead because you mentioned 
glacial.
    Ms. Wooden. Yes. So I mean, it is interesting. The research 
is pretty clear that there will be--there has been a decline in 
the 20th and 21st--early 21st century in glacial coverage.
    This will impact water supply. So the regional leaders know 
that. Everyday people talk about it. This is kind of a known 
thing there and thinking about adapting is part of the 
conversation. I think it is an interesting moment for potential 
cooperation over this.
    Right now, it is a source of tension and concern because it 
is an uncertainty. Exactly what will those precipitation 
patterns look like, it is pretty unclear.
    So thinking about ways in which we can engage to support 
addressing that is probably one of the most important steps we 
can take for the future of water supply and it is a--it is a 
fear right now, right. So the discussion about climate change 
in the region is about this uncertainty.
    Mr. Keating. It is dynamic too because it is just not about 
precipitation changes. It is also flooding and other issues 
that result.
    Ms. Wooden. Yes, and temperature changes. So there is--the 
latest IPCC report had a number of instances, I think something 
like six or seven, indicating specific changes in Central Asia 
that include temperature changes that are already impacting the 
growing season that interacts with what is happening in the 
Aral Sea.
    So the interaction--I don't think the conflict will happen 
directly but as we have all outlined, the next step to 
migration, for example, is one of the most important next 
social impacts. Where will people move to if glaciers decline? 
The fastest declining glaciers in the region are the lowest-
lying smallest glaciers closest to population centers.
    That is where we see that already happening, right, and so 
will people move from those locations in agricultural-dependent 
communities and what will that migration mean.
    Mr. Keating. We didn't touch too much on international 
aquifers as an issue but I think they are another concern that 
we should have and many of them are facing serious declines as 
well not just with ground water decline but with contamination.
    Can you just discuss what can be done and what is being 
done with that, particularly in agricultural areas?
    Mr. Sullivan. Well, if I might say something on the issue 
that she just touched upon, think about the following 300 to 
400 million people that are reliant on the Tibetan Plateau 
glaciers and those glaciers might be melting. That includes 
three nuclear states--Pakistan, India and China.
    Now, with regard to the aquifer, there is a very 
interesting aquifer in North Africa--the Great Nubian Sandstone 
aquifer, which has 150 trillion cubic meters of water in it.
    Muammar al-Gaddafi--you remember him? He started something 
called the Great Manmade River to bring that water to the 
coastline to green Libya. At the same time, Egypt was tapping 
into the thoughts of water--this is 40,000- to 60,000-year-old 
water--as an alternative source of fresh water.
    Once you take that stuff out, it is nonreplenishable. There 
is no rain. The Saudis grew wheat in the desert. The first time 
I flew over Saudi Arabia was in 1980 coming back from Bombay, 
India, writing my Ph.D. at the time.
    I saw these green circles. What is this all about? Growing 
wheat in the desert, using the underground aquifer of 
nonreplenishable water. Overall, it cost about 11 times to grow 
the wheat than in Kansas. That was a waste.
    They figure it out. They changed the program. But when 
people don't see what is underground they don't really think 
about it and when water is free just take it up, when the only 
cost of water to you is the diesel fuel to pump the water out 
of the ground.
    But on the other side of the story, being from New England 
you can--you know how big New England is. We all do. Underneath 
Darfur there is a huge lake of water the size of New England, 
sometimes 300 meters deep.
    But on top of that underground aquifer people are dying of 
thirst. We have to understand the situation a lot better.
    Mr. Keating. Thank you. I yield back.
    Mr. Meeks. Thank you, Mr. Chairman. And that is interesting 
because--what you just talked about, Mr. Sullivan.
    I mean, what is striking to me is, as I said in my opening, 
there was a presentation on 60 Minutes just this past weekend 
and they were showing how deep in the ground, in California, 
not in places that we are talking about where folks are 
starving, but in California where the farmers are utilizing 
this ground water and pumping it up, just using the same 
machines as if they were digging for oil, and how the ground 
water is now going down, down--I think they said a foot every 
month now.
    But the farmers claim that they need it and they were 
drilling more holes, et cetera. But we have got places where 
folks are starving and they need the water to drinks and/or, 
you know, you talked about what took place in Egypt.
    So how do we balance the need for preserving the water and 
juxtapose it to those individuals who need water to drink--you 
know, clean water to drink, and that is clearly, you know, 
sanitation wise, et cetera?
    How do we juxtapose we do that and working with these 
countries so that they can survive? You know, it is easy for--
sometimes for folks to come from the United States and say we 
can do this because we have--you know, we are feeding our 
people, et cetera.
    They are in a different circumstance--so that they can 
survive but also understand the precious resources because we 
all are interrelated in that regards. How do--how do we 
differentiate between the two? Dr. Kuehnast?
    Ms. Kuehnast. Well, I think a couple of things. One, we 
need good data and that needs to be shared in a transparent way 
from the ground level to the political elite as such.
    But even more so, some of what we have to do is change 
daily habits and that needs very astute social marketing 
efforts and that is why I emphasize this, that we need, first, 
critical problem solving skills of the people who live there.
    And second, how can we market that kind of change of 
behavior? Because they came out of a legacy where all things 
were free, where there were no incentives to save. And you have 
to change human behavior first to get at, you know, bridging 
the gap between the Darfur example so eloquently laid out here 
and the water underneath.
    We need that bridgework--critical thinking skills, 
incentive programs for young people to help solve their own 
issues.
    I loved what you said about, really, it is not only sharing 
but preserving water for the future--how you motivate young 
people to get at that problem and that helps them solve their 
future issues.
    Mr. Sullivan. Well, a lot of this has to do with knowledge 
and data--I would agree. We really don't know what the 
groundwater is like in many parts of the world.
    But also how many people know what their water footprint 
is? Two kilograms of beef takes 15,701 or thereabout liters of 
water and yet a similar amount of protein through vegetables 
would be about 1,700 liters of water.
    The way we eat we have countries growing very quickly--
China, for example. They are moving toward pork and beef, more 
water intensive ways of doing things. Energy systems--some are 
more water intensive than others.
    The worst is biofuels, by far--irrigated biofuels--
absolutely water nonsense when it comes to that, particularly 
in a country with low amounts of water. Getting back to 
Ethiopia, it is hydro dams causing all of this trouble. They 
have massive geothermal reserves in that country which will use 
less water.
    They have significant solar energy potential, wind energy 
potential, many other potentials in that country that could be 
used without causing all of this trouble. At least seven 
gigawatts of geothermal could be rolled out in the next few 
years. They are on the Rift Valley.
    Geothermal is a really great place when you are near hot 
rocks in the ground. Just north of San Francisco in your state 
there is a city that is run by geothermal, Calpine Geysers.
    Geothermal in the world is a small percentage of what it 
could be. Japan could turn around to geothermal. Many countries 
could turn around. In this country, the biggest use of water is 
not irrigation.
    It is thermal electric cooling--thermal electric cooling--
and California is facing this as a big problem right now and 
many countries looking to develop their energy systems the way 
we did it are going to have to rethink it if they have water 
stress. Nuclear power plants the same thing--how do you cool 
them down? With water.
    Mr. Meeks. And let me ask Ms.--I think Dr. Wooden said 
this, that--I am just interested in the statement--you said 
that bilateral agreements as opposed to multilateral agreements 
were more effective.
    You know, in my way of thinking initially was that in a 
region you wanted, of course, it could be interconnected 
between two and three different countries that you would want 
multilateral agreements.
    I was wondering if you could give me some further 
clarification on why bilateral is more successful than 
multilateral.
    Ms. Wooden. It is interesting, in Central Asia the 
relationship over these two rivers has been joined. It is part 
of the Soviet legacy and in the post-Soviet period initially in 
cooperation that actually was enhanced by joint concern about 
the Aral Sea decline.
    So actually we actually saw in the 1990s a number of high-
level meetings between leaders of the countries in the region 
establishing an institutional framework that was rather complex 
that united all decisions across the region and made it 
difficult to separate out the individual rivers.
    And so when tensions exist between two countries among the 
five, and six if we include Afghanistan, this makes progress in 
the rest of the basin difficult. And so that is why the 
suggestion by the international community has moved toward 
okay, let us break this down and work on those bilateral 
relationships and some of them have moved forward.
    I mentioned a couple of them like the Kyrgyzstan and 
Kazakhstan relationship and they are not perfect. They had a 
little bit of a spat over water in 2010 when Kazakhstan closed 
the borders after the violence in Osh and Kyrgyzstan--well, 
there were some canals that were cut off for a little bit of 
time and Kazakhstan then reopened the borders.
    So those bilateral relationships don't always work 
perfectly. But they have allowed some improvements, for 
example, in funding of infrastructure improvements in 
Kyrgyzstan from Kazakhstan, and Kazakhstan and China are 
experimenting with this as well.
    So there was a breaking down of the complexity of the 
relationship to smaller bilateral agreements that also deal 
with some of the border delimitation issues, for example, or 
the enclave disputes.
    And so what building cooperation also is demonstrating is 
that it is possible in one part of the basin. That doesn't mean 
that the future of moving toward multilateral agreements should 
be avoided. That would be preferable.
    But until that is functioning--yes.
    Mr. Meeks. My last question would be I haven't heard in the 
testimony much and I know we in the United States have to do 
our part--we have to do a lot--but I didn't hear--what about 
the roles of--do you think in regards to the United Nations, 
the World Bank or other international efforts to address these 
freshwater conflicts?
    Do they have--do they have--should they play a significant 
role or do we not just have confidence in them?
    I haven't heard about--you know, again, it is a global 
context of which we are talking and so I think that we need 
help. But I wonder, you know, your positions on those.
    Ms. Wooden. I can mention that when it comes to the Aral 
Sea, many people are greatly disappointed in the limitations of 
the international community to assist in stopping the process 
of the collapse of this ecosystem.
    This is--this was the focus of my dissertation--evaluating 
regional engagement in the Aral Sea basin--and the most 
successful efforts that actually surprised me were by USAID and 
that was because the engagements were small and spending a lot 
of money in a really difficult political situation is 
challenging.
    And I think that the efforts are also sometimes incorrect. 
So, for example, the World Bank helped fund the construction of 
the Kok Aral Dam, which divides the small Aral at the north 
part of the sea from the larger Aral, and this was done because 
of the intractability of dealing with Uzbekistan's Government 
primarily and just in wider issues such as changing cotton 
production for reducing irrigation use.
    And so the World Bank, when appealed to by the Kazakhstan 
Government, agreed to construct this dam and it worked to 
increase the levels of water in the small northern part of the 
Aral.
    But it drastically sped up the decline of the rest of the 
lake and so this summer it no longer exists in part because of 
that sped up process.
    So this dam is used as an example of success but it is 
also--you know, when we think of--we take this whole ecosystem 
and we break it up in parts. I just suggested doing so, right, 
but there are ramifications of doing that.
    And so continuing to make sure we understand clearly if we 
engage economic growth in the textile sector what does that 
mean for cotton production in the wider region? We need to be 
aware of those ramifications.
    Mr. Sullivan. The World Bank--excuse me. Could I--the World 
Bank has been involved with this but is not involved with the 
GERD because they have not received an environmental impact 
statement or an economic or social impact statement, which they 
require.
    The GERD is actually being paid for by bonds that are being 
sold to the Ethiopian public at between 1.5 and 2.5 percent. 
There are NGOs that are really doing very good work in the 
small. Water.org, with Matt Damon, is doing great stuff in 
Africa.
    Five thousand children under the age of five die every day 
in sub-Saharan Africa because of dirty water. You want to make 
friends and influence people? Clean up the water.
    Mr. Rohrabacher. Thank you very much for that admonition. I 
think it--we should all take that to heart. About the point you 
made before that--whoever it was--about the financing of a 
particular dam, who is financing the Rogun and the Renaissance 
Dams?
    Who is financing that? These are the--these are the two 
dams where the, really, the major contention--this could end up 
resulting in conflict. Who is financing those?
    Mr. Sullivan. When I say the GERD, I mean the Great 
Ethiopian Renaissance Dam. That is the one with the bonds. So I 
should have been clearer.
    Mr. Rohrabacher. So the World Bank and the other----
    Mr. Sullivan. The World Bank is not involved. The IFC is 
not involved. USAID and the United States give Ethiopia about 
$500 million a year. There is a leverage there.
    It is mostly being paid for by statement of the Ethiopian 
Government--by the Ethiopian Government but they are paying for 
it with debt. This is a country with a $50 billion GDP and this 
dam alone is $5 billion.
    Mr. Rohrabacher. And who is paying--who is buying the 
bonds?
    Mr. Sullivan. Ethiopian expats, Ethiopians who live in the 
country. China is involved with the turbines. China is involved 
with the electricity system connections. But they don't have 
enough money in the country, is my guess, to do what the 
Egyptians did with the Suez Canal. No way.
    Mr. Rohrabacher. I know I don't have to tell you that I 
have--you are not giving me a certainty answer. The Ethiopian 
expats are buying all these bonds----
    Mr. Sullivan. And people inside the country. They have 
embassy locations throughout the world. I know that sounds 
odd----
    Mr. Rohrabacher. It does sound odd----
    Mr. Sullivan [continuing]. Because they couldn't find----
    Mr. Rohrabacher [continuing]. Impoverished for them to be 
able to----
    Mr. Sullivan. I know. I know but----
    Mr. Rohrabacher [continuing]. Buy bonds.
    Mr. Sullivan. But with the Suez Canal the Egyptians 
collected 66 billion Egyptian pounds, about $10 billion to 
build that.
    Mr. Rohrabacher. That seems a little more doable than the 
Ethiopian people who mainly live in poverty.
    Mr. Sullivan. Okay. So now you see my lack of believing in 
some of the policies of the Ethiopian Government. When they are 
doing something like this and they are saying this----
    Mr. Rohrabacher. Yes.
    Mr. Sullivan [continuing]. This is problematic.
    Mr. Rohrabacher. Yes. Well, let me--somebody is making 
money on it there.
    Mr. Sullivan. No kidding.
    Mr. Rohrabacher. Yes, no kidding. By the way, just to 
mention geothermal, however, there have been drawbacks to 
geothermal and that is--we tried that in California. We have a 
large amount of geothermal and they may have solve that problem 
now technologically.
    I would have to go back and take a look. But it destroyed 
the--there was a--the pipes went through a degeneration of the 
pipe and the material very quickly and geothermal wasn't--
didn't meet its promise, let us put it that way, because there 
was a lot of calculation on that early on.
    Now, maybe they have cured that problem without me knowing 
it. But I will check into it because I should know that. About 
the--a couple points.
    We will do just a second round very quickly and with all 
due respect I don't think we necessarily disagree on global 
warming. The issue that mainly is at hand, the temperature is 
what the temperature is and the impacts that people measure are 
there.
    The question is whether human activity through CO2 is 
causing the change in the climate. We have been through climate 
changes throughout the history of this planet and the only 
question is is the one we are at is that caused by human 
beings, and if it is my colleagues who believe that have--are 
totally justified in trying to control the behavior of human 
beings through government action.
    If you don't think that it is human beings you end up 
spending enormous amounts of money and controlling people's 
lives basically when you should be trying to find ways of 
dealing with the fact that you are now in a cycle of history 
that will leave with less water and affect the glaciers, et 
cetera.
    Rather than trying to control people's lives you are trying 
to remediate it--I guess, is the word I am looking for--the 
effects of that impact and whether--so we are--it sounds like 
we are in for some when we may face water shortages because of 
one part of the cycle or something that were being caused by 
having too many automobiles.
    But whatever it is, it is there and when countries like 
Egypt try to deal with it and Ethiopia tried to deal with it 
and Central Asia, we need to put in place something, not just 
the answer to how we are going to lessen the suffering that may 
come from this but also perhaps weigh--that we put in place 
something that will deal with the conflicts that happen between 
peoples that wouldn't exist had that change in climate or the 
change in the status quo not happened.
    We don't seem to have that. I mean, I haven't been getting 
that from you today as to there is something in place. Maybe we 
need to focus on trying to have some international mediation 
board or arbitration board that is signed on to any nations 
that have conflict and that everybody else agrees that at that 
point they will respect the rights and they will respect those 
nations that go ahead and go along with whatever the decision 
is.
    That is one idea. Maybe there is some other ideas of how we 
can help countries become more efficient in the use of water 
and things such as that. If you have just one or two comments 
on that and then I will let Mr. Keating finish up with his 
questions.
    Ms. Wooden. On the Rogun Dam question you asked about, 
there are ongoing considerations--from the Tajikistani 
Government--about how to attract more funding and the 
government has in the past sought to collect funds, a forced 
funding collection from citizens.
    So there is some controversy about how the funding has been 
raised and whether or not funding will be forthcoming to 
complete the project. So that is definitely a part of the 
discussion.
    Regarding the possibilities of dealing with the conflicts 
that are produced, respectfully, I think that just like in the 
Aral Sea situation if we don't actually tackle the causes of 
the problem, if we think about temperature changes, 
precipitation changes, glacial decline, there are in the latest 
IPCC report tens of thousands of academic articles evaluated to 
identify pretty clearly--very clearly the pattern and the cause 
of anthropogenic impact, anthropogenic greenhouse gas emissions 
on climate change.
    So we know what the causes are. There is scientific 
certainty and so----
    Mr. Rohrabacher. Let me just note--let me just note for the 
record that being a member--the vice chairman of the Science 
Committee that is only your opinion and the opinion of others. 
There is a lot of other opinions as well.
    Ms. Wooden. Well, I actually don't think it is opinion. 
This is scientific research, correct?
    Mr. Rohrabacher. But whether or not--whether or not it is 
caused by human beings or whether it is caused by a natural 
cycle, as I said, I don't think that it is as relevant as would 
be except you want to aim your solutions at what will have a 
good impact.
    Ms. Wooden. Right. I agree. Aiming the solutions of what 
will have a good impact but we have to get at the heart of the 
problem, and we have been asked to come here as experts in the 
region and plenty of experts on climatology have evaluated the 
problem.
    So if we think about then how to deal with conflicts, just 
like with the Aral Sea issue the Aral Sea problem was cotton 
production. If we think about dealing with the problems of 
water supply there are ways of changing the uses of water, the 
ways of dealing with water pollution, for example, that makes 
the available water all capable of use, right.
    I mean, those are really important issues to tackle that we 
forget when we talk about trying to increase supply in other 
ways, well, we have actually have to make sure that we have 
adequate quality of the water that exists.
    So that is why we can talk about those kinds of causes and 
address those.
    Mr. Rohrabacher. And Dr. Sullivan, in his admonition to us 
about, you know, if we are really concerned about people's 
lives those 5,000 kids dying like that with--from bad water, 
sometimes--and people have this--build these grandiose projects 
with the dam in Ethiopia when I have been told if we just would 
focus on making sure that people in those villages have a way 
of purifying their water in sometimes very simple ways but we 
have to take the initiative to go out and make certain things 
available--that that would be much better than these grandiose 
dam projects.
    Mr. Sullivan. Couldn't agree with you more on this. There 
is something called SODIS--S-O-D-I-S--out of Switzerland where 
very poor people can actually use the typical plastic bottle, 
filter a little bit and put it on top of a tin shack, heat the 
water and get rid of most of the bacteria. And then there is 
LifeStraw, which is pretty inexpensive--this could be handed 
out.
    But this is kind of person to person. Another way of 
getting at this, particularly in remote communities is to have 
solar water pumps or wind water pumps, getting the cleaner 
water up from the aquifer.
    The problem with dying from dirty water is that they are 
digging this out of open pit wells where the donkeys and other 
animals--you can take a guess at what happens and people wash 
and it is happening in rivers and so forth. But there are 
simple answers to this.
    If you take a look at the $5 billion being used to bill 
this dam and put it toward cleaning water for under-five 
children in Africa you could save many American football 
stadiums full of African kids every single year.
    Mr. Rohrabacher. And did you have one last comment to that?
    Ms. Kuehnast. Well, I would just like to underline again 
that, you know, we need creative context-specific solutions. 
These five countries in Central Asia all have different water 
and energy dynamics.
    One shoe does not fit all. But, you know, I am interested 
in the fact that Dr. Wooden said USAID's project in the Aral 
Sea seemed to have impact because it was locally driven, and I 
think so often we are attracted by the massive engineering of a 
dam or a road or whatever else that we lose track of the 
everyday efforts or technology--low-level technology that could 
make a difference and we need to incentivized that approach and 
that is my suggestion.
    Mr. Rohrabacher. Well said, because the incentive now is 
for some big companies to make a lot of money building these 
huge projects. Mr. Keating?
    Mr. Keating. Thank you, Mr. Chairman. I will just comment 
on some of the takeaways I get from today's hearing and you can 
comment as you may wish to or may not.
    But the one thing that seems clear is that we don't have 
enough data and, to me, if we are going to work with water 
management and--or mismanagement and we are going to look at--
deal with this issue, we seem to have a consensus among all 
three of you that this is a primary need and without that we 
are not able to move constructively.
    That brings me back briefly--we won't dwell on it--to the 
importance of realizing as the U.N.'s Intergovernmental Panel 
on Climate Change has in thousands of reports that climate 
change--99 percent of all the scientists that poll agree that 
climate change is manmade and without having that basic 
understanding it is going to be harder to deal with that data 
once we get that or even accumulate that data.
    So I think it is a threshold issue we have to deal with. 
But I want to tell you I feel optimistic after today's hearing 
because there is so much we can do.
    This thing is not a problem that is in any stretch 
insurmountable or difficult if we do--if we approach it the 
right way. And so I came away learning that, you know, some 
fundamental issues about, you know, what you grow for 
agricultural products and where you grow it, even what we eat, 
are all things that have very strong impact on our water 
resources in this world.
    I think--I mentioned just once that the government can get 
involved and the U.S. Government is involved in many ways. The 
smaller project with the Millennium Challenge in Cabo Verde, 
you know, we put $41 million to establish transparent water 
delivery and sanitation systems for that area. And so we can, 
you know, use some of our financial resources in that respect 
as well.
    And I will finally just comment on, and Dr. Sullivan was 
stealing some of my thunder on this, but in my own district we 
have a military base where there was water contamination from 
the utilization of that and it was a major problem and it is 
being cleaned up, and the energy to clean that up is being 
generated through wind power.
    So and I also have municipalities in my district that I 
have gone around during this break and I have seen how they are 
using solar and wind power in those communities to provide the 
energy for wastewater cleanup and for even the delivery of 
their own water supply.
    So there is a real, you know, need, I think, because if you 
are doing the tradeoffs to clean up the water and to do this 
produces energy, takes energy. But we can do that if we commit 
to renewables, I think, and using it for that purpose and it is 
working in my district as we speak.
    So I come away very hopeful on many fronts. But we do have 
to start with getting the data and getting the information and 
that is something one country can't do itself.
    That is something that is going to need international 
cooperation with in terms of access and getting our scientists 
all on the same page and our engineers all on the same page and 
then we can approach this.
    So that is, again, getting back to my introductory remarks, 
Mr. Chairman, why this committee has, I think, done a great 
service by, again, bringing up this issue that not only affects 
a global conflict but our survival and our assessments going 
forward.
    So thank you very much. If any of you want to comment on 
any of those things you are free to.
    Mr. Sullivan. When I think of many of the things that we 
talked about today sometimes I think of the little children I 
had seen in Egypt in my years living there. I wonder what is 
going to happen to them.
    The water gets shorter. What happens to the women and the 
girls and the older people who need that water more than 
others? And also, how will this affect the development of 
terrorism and strife and the return of the Brotherhood?
    Ethiopia really needs to commit publicly how quickly they 
are going to fill up this dam, by how much and when, and have 
some cooperation with Egypt and others involved to try to 
resolve the tensions here.
    They need to do the same with Kenya for the Omo River. 
There has to be some precedents set to find a civilized 
reasonable way of solving these issues without conflict because 
it goes right back to the little kids in the street in Cairo.
    Ms. Wooden. I would like to add on the data sharing issue 
or the data collection issue that in part it is to understand 
some of these processes are happening--to be able to understand 
them well--for us here to understand them--for decision makers 
in the region to know what is happening in the future.
    But also data sharing is an important part of 
intergovernmental relations, right. I mean, it is one of the 
biggest problems that we have between Uzbekistan and Tajikistan 
and Kyrgyzstan that is that transparency about these processes.
    Ability to predict mutually understood change and how to 
adapt to it as it is happening is very important. I mean, the 
understanding of how we can monitor from satellite imagery, 
monitor ground water changes in California has been really 
important for our ability to withstand--in a significant 
drought withstand severe political ramifications, right. That 
is what we are talking about happening in Central Asia.
    A big part of this is just being able to make this whole 
process transparent. So I think funding of research is one of 
the most crucial steps we can take to tackle this and to 
generate cooperation.
    We have already talked about cooperation as happening more 
commonly, right. So there is much to build on here in the 
relationships between communities on the border and between 
governments and we can really begin by just listening to 
leaders but community leaders at the local level for what they 
need.
    Most people in the region are concerned about water as the 
primary issue. We both have found this in our surveys of the 
region--that water pollution and water supply are primary 
concerns.
    So people know what the issues are, are worried about them 
and want to work together to tackle them so mainly through 
improved understanding of what is happening.
    Ms. Kuehnast. I would like to say that, indeed, 
transparency of information is critical. But what you need is 
the investment of the young people in this five-country region 
with a sense of hope, with a sense that they can apply good 
knowledge with excellent business and technological acumen and 
help solve their problems, help strengthen and build capacity 
at the local level and I think you will see more wind farms, 
more solar energy, more direct person-to-person and technology 
advancements that are really responsive to the issues and in 
doing so you will prevent conflict because you give people the 
sense that they can take care of this themselves and that they 
are empowered to do so.
    Thank you.
    Mr. Rohrabacher. Well, thank you all, and just a note that, 
again, I want to say very clearly that the United States is 
watching Ethiopia's activities and decisions on this dam 
project. We are watching very closely.
    We are--we would expect, if Ethiopia is acting responsibly, 
that it commit itself to publicly to a policy that will ensure 
that they are not doing a project that will benefit them at the 
expense of the people of Egypt but instead will try to work and 
hopefully work with the Egyptians to find water solutions that 
do not harm large numbers of other people who happen to live 
across the border or downstream from you, and this--the 
Ethiopian Government better understand that or there will be 
major retaliation from this Congress on Ethiopia for that type 
of hostile act toward the people of Egypt.
    In terms of Central Asia, I would hope that Uzbekistan and 
Tajikistan as well as these Central Asian countries will be 
able to--because they all are dependent on water, I mean, 
especially with Tajikistan and Uzbekistan should understand 
this problem and hopefully they will work together and that 
there will be a Central Asian cooperative spirit that will put 
people together for--to come up with an understanding on this, 
and maybe we can play a positive role in all of this by 
thinking about establishing, as your organization is aimed at, 
trying to find out how we can as a people serve as conflict 
deterrents and how we can become active in a process of 
deterring conflict by being arbiters or being people who are--
we at least could come in and get the parties together and find 
ways of reaching agreements between people who have 
disagreements that might lead to conflict and water is, of 
course, one of those major issues.
    I do believe that we should continue funding. One of the 
reasons why I am upset with the focus on human activity is that 
it--we have spent billions of dollars trying to determine what 
will be the impact of global warming and with the idea of 
justifying the expenditures on that research.
    I think that we should instead have research into finding 
ways that are going to make people's lives better that will 
actually be able to offer some sort of impact on those people's 
lives there, whether it is the water pollution devices that Dr. 
Sullivan talked about or other types of technologies that will 
permit people in Africa to get--to cheaply get to cleaner 
water, which seems to be better than building huge dam 
projects, et cetera.
    So but, again, whether or not it is caused by human beings 
or whether it is caused by--one last note. That 99 percent 
figure has been figure has been disproven over and over and 
over again.
    Ninety-9 percent of the scientists do not agree that 
mankind is causing this change in the climate. It is a 
majority, however do agree with you and disagree with but not 
99 percent.
    And with that said, I want to thank the witnesses. We have 
had a very good discussion and I have really always felt that 
there are two major important things for people--to be able to 
have a planet where ordinary people are going to live decent 
lives.
    We have got to have energy and hopefully clean energy and 
we have got to have water, and with those two things I think 
human beings and human ingenuity will be able to overcome a lot 
of other things and develop the agriculture, et cetera, that we 
need. But without those two fundamental things in play, 
ordinary people won't live well.
    So I think the United States should be committed to clean 
energy and water for the world.
    Thank you very much. This hearing is adjourned.
    [Whereupon, at 3:40 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
